OFFICE OF INSPECTOR GENERAL

AUDIT OF
USAID/AFGHANISTAN’S
INTERNAL CONTROLS IN THE
ADMINISTRATION OF THE
INVOLUNTARY SEPARATE
MAINTENANCE ALLOWANCE
AUDIT REPORT NO. F-306-12-003-P
JUNE 25, 2012




KABUL, AFGHANISTAN
Office of Inspector General


June 25, 2012

MEMORANDUM

TO:                  Acting USAID/Afghanistan Mission Director, Brooke Isham
                     Office of Human Resources Director, Deborah Kennedy-Iraheta

FROM:                OIG/Afghanistan Director, Nathan S. Lokos /s/

SUBJECT:             Audit of USAID/Afghanistan’s Internal Controls in the Administration of the
                     Involuntary Separate Maintenance Allowance (Report No. F-306-12-003-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered comments on the draft report provided by USAID/Afghanistan and the
Office of Human Resources. We have included those comments in Appendix II.

The report contains ten recommendations to help the mission strengthen its administration of
the involuntary separate maintenance allowance.        Final action has been taken on
Recommendations 5 and 7, and management decisions have been reached on
Recommendations 2, 3, and 6.             Management decisions may be reached on
Recommendations 1, 4, 8, 9, and 10 when we agree with USAID/Afghanistan on a firm plan of
action, with time frames, for implementation. Please advise our office within 30 days of the
actions planned or taken to implement these recommendations.

A determination of final action for Recommendations 2, 3, and 6 will be made by the Audit
Performance and Compliance Division on completion of the proposed corrective actions.

Thank you and your staff for the cooperation and courtesies extended to us during the audit.




U.S. Agency for International Development
Office of Inspector General
U.S. Embassy
Kabul, Afghanistan
www.usaid.gov/oig
CONTENTS
Summary of Results ..................................................................................................... 1

Audit Findings ............................................................................................................... 3

     Mission Lacked Internal Controls Over the Approval of Applications ......................... 3

     Employees Signed for Their Spouses on Applications............................................... 4

     Controls Over Allowance Payments Were Insufficient ............................................... 4

     No Internal Controls Covered Approval of Home Leave Travel ................................. 6

Evaluation of Management Comments........................................................................ 8

Appendix I – Scope and Methodology ....................................................................... 10

Appendix II – Management Comments ...................................................................... 11


 Abbreviations

 The following abbreviations appear in this report:

 ADS                  Automated Directives System
 DSSR                 Department of State Standardized Regulations
 EXO                  Executive Office
 FAM                  Foreign Affairs Manual
 ISMA                 involuntary separate maintenance allowance
 OFM                  Office of Financial Management
 OIG                  Office of Inspector General
 SMA                  separate maintenance allowance
SUMMARY OF RESULTS
The separate maintenance allowance (SMA) is a nontaxable cost-of-living allowance that
USAID may provide to “assist an employee to meet the additional expenses of maintaining
members of family elsewhere than at the employee’s foreign post of assignment.” 1 USAID has
three types of SMA benefits for its employees: involuntary, voluntary, and transitional. The first
type, involuntary SMA, is being authorized and paid to USAID/Afghanistan’s U.S. direct-hire
employees, U.S. personal services contractors, and third-country national personal services
contractors—all referred to as employees in this report. In fiscal year 2011, USAID/Afghanistan
paid more than $2 million in involuntary SMA to 212 people.

USAID’s Office of Inspector General (OIG)/Afghanistan Country Office conducted this audit to
determine whether USAID/Afghanistan had appropriate internal controls to prevent improper
use of involuntary SMA (ISMA). Such controls should cover all activities related to the
allowance—application, processing and approval, payment, and coordination with other
benefits.

USAID/Afghanistan had not established a system of internal controls to help ensure that ISMA
applications complied with applicable laws and regulations and that compliance was
documented. Moreover, while USAID/Afghanistan had established internal controls to help
ensure that ISMA payments to mission staff were made in accordance with applicable laws,
regulations, and USAID policy, those controls did not prevent improper payments.

Specifically, the audit disclosed the following:

•     The mission lacked internal controls over the approval of applications (page 3). Although
      the mission was responsible for establishing internal controls over the processing and
      approval of ISMA applications for U.S. and third-country national personal services
      contractors, 2 it had not established such controls.

•     Employees signed for their spouses on applications (page 4). When applying for ISMA for
      the benefit of a spouse both the employee and the spouse are required to sign the ISMA
      application. However, employee and spouse signatures on ISMA applications for 13 out of
      35 employees sampled during the audit appeared similar. Three of those employees
      acknowledged signing their spouse’s signature on the ISMA application and one indicated
      that he may have done so. (these employees were U.S. direct-hire employees whose ISMA
      applications were approved in USAID/Washington).

•     Controls over allowance payments were insufficient (page 4). USAID/Afghanistan had
      established internal controls to prevent improper ISMA payments, but those controls did not
      always work. In five of the 35 cases reviewed, we found evidence of improper payments.
      For example, the mission made ISMA payment to three employees whose children had
      turned 21 and were therefore ineligible for ISMA. The mission also did not make monthly
      ISMA payments covering an employee’s dependent mother and ultimately had to make a
      retroactive payment totaling over $13,000. We also found a case where the mission
      improperly reduced an ISMA payment because the employee was away from post on home

1
    Department of State Standardized Regulations, Section 260, “Separate Maintenance Allowance.”
2
    ISMA applications for U.S. direct-hire employees are approved by USAID/Washington.

                                                                                                   1
     leave.

•    No controls covered approval of home leave travel (page 6). While home leave travel is not
     authorized for family members already authorized ISMA, the mission authorized and made
     improper payments for home leave travel for dependent family members of at least two
     employees, when those family members had already been authorized ISMA benefits.

The report recommends that:

1. USAID/Afghanistan develop, implement, and document controls to confirm that the ISMA
   applications it approves are properly authorized (page 3).

2. USAID’s Office of Human Resources develop, implement, and document controls to assess
   the legitimacy of spouse or domestic partner signatures on ISMA applications (page 4).

3. USAID’s Office of Human Resources review the incidents in which employees
   acknowledged signing their spouses’ signatures on ISMA applications and take appropriate
   administrative action against those employees found to have signed their spouse’s signature
   (page 4).

4. USAID/Afghanistan reassess its controls over ISMA payments and make any adjustments
   necessary to strengthen the effectiveness of those controls in preventing improper
   payments (page 5).

5. USAID/Afghanistan review the $3,833 in ISMA paid for children who had turned 21 and
   recover any improper payments (page 5).

6. USAID/Afghanistan review ISMA payments made in fiscal years 2010, 2011, and 2012 to
   identify improper payments made for children who had turned 21 and recover any improper
   payments (page 6).

7. USAID/Afghanistan pay the $636 balance of ISMA to the employee who was underpaid
   (page 6).

8.   USAID/Afghanistan calculate and recover the home leave travel costs paid for the
     dependent family members of two U.S. direct-hire employees that already had
     ISMA authorized for those dependents (page 7).

9.   USAID/Afghanistan develop, implement, and document controls to help prevent the
     authorization of Foreign Service benefits that are incompatible with ISMA for family
     members (page 7).

10. USAID/Afghanistan review all employees receiving ISMA in fiscal years 2010, 2011,
    and 2012 to determine whether those employees or their family members received
    incompatible Foreign Service benefits and recover any incompatible benefits paid
    (page 7).

Detailed findings follow. Our evaluation of management comments is on page 8. Appendix I
presents the audit scope and methodology. Management comments appear in Appendix II.



                                                                                             2
AUDIT FINDINGS
Mission Lacked Internal Controls
Over the Approval of Applications
USAID management is responsible for establishing and maintaining internal controls to help
ensure compliance with applicable laws and regulations. 3 In addition, the Government
Accountability Office’s Standards for Internal Control in the Federal Government notes that
internal control and all transactions and significant events must be clearly documented.
Accordingly, in the context of administering SMA benefits (to include ISMA), USAID
management is responsible for establishing and maintaining internal controls to help ensure that
SMA is authorized and paid in accordance with applicable laws, regulations, and USAID policy.

USAID’s policy on SMA for U.S. and third-country national personal service contractors is
reflected in the relevant clauses included in their contracts. These clauses require that SMA be
granted in accordance with Section 260 of the Department of State Standardized Regulations
(DSSR). USAID’s policy on SMA for U.S. direct-hire employees, contained in Section 477.3.3 of
USAID’s Automated Directives System (ADS), is more robust, not only requiring compliance
with DSSR 260, but also providing two companion documents: “A Guide to Authorizing
Separate Maintenance Allowance: A Mandatory Reference for ADS Chapter 477” (SMA guide)
and the Separate Maintenance Allowance Checklist (SMA checklist).

Although USAID/Afghanistan was approving ISMA applications for U.S. and third-country
national personal services contractors, it had not established a system of internal controls to
help ensure that those applications complied with DSSR 260. Mission staff members
responsible for reviewing and approving ISMA applications from U.S. and third-country national
personal services contractors acknowledged that they did not have a defined set of internal
controls to apply when reviewing ISMA applications. In fact, the former supervisory executive
officer (EXO) indicated that she assumed someone had reviewed ISMA applications before
sending them to her for approval. One deputy EXO confirmed that the mission has no written
guidance on the EXO’s role in authorizing ISMA. This lack of internal controls heightens the risk
that ISMA applications for personal services contractors may be improperly approved.

    Recommendation 1. We recommend that USAID/Afghanistan develop, implement, and
    document controls to help confirm that the involuntary separate maintenance allowance
    applications that it approves for personal service contractors are properly authorized and
    comply with Section 260 of the Department of State Standardized Regulations. Such
    controls may include application of USAID’s “A Guide to Authorizing Separate
    Maintenance Allowance” and the Separate Maintenance Allowance Checklist.




3
 Management’s responsibility for such internal control is discussed in the policy section of Office of
Management and Budget Circular A-123 and in ADS Section 596.3.1.

                                                                                                    3
Employees Signed for Their
Spouses on Applications
When applying for ISMA for the benefit of a spouse, the USAID employee must obtain his or her
spouse’s signature on the ISMA application. Dual signatures provide an important safeguard: in
signing the application, the employee and spouse certify that the information on the application
is true and correct, that they have an obligation to notify the authorizing office immediately of
any change that may affect the amount of ISMA payable, and that false statements on the
application may make them both subject to criminal or administrative penalties.

On ISMA applications submitted by 13 of the 35 USAID/Afghanistan employees in the sample
selected for audit, the spouse’s signature appeared similar to that of the employee. In
subsequent interviews with those 13 employees, 3 (almost 10 percent of the sample) revealed
that they had in fact signed the ISMA application for their spouse, and another employee
indicated that he “may” have done so. 4 These false spouse signatures circumvented a key
control built into the ISMA application and could have been identified if USAID staff had looked
for similarity between employee and spouse signatures before approving the ISMA applications.
This failure to identify suspect signatures heightened the risk that applications would be
improperly approved and improper ISMA payments made. Clearly, ISMA applications lacking
the actual signature of the employee’s spouse or domestic partner should not have been
approved.

The employees who acknowledged signing or possibly signing their spouses’ signatures on their
ISMA applications were all U.S. direct-hire employees whose ISMA applications were approved
by USAID/Washington. While we contacted USAID/Washington regarding this issue, we were
unable to determine why these suspect signatures were not discovered during application review.

We make the following recommendations to USAID’s Office of Human Resources, which
reviews and approves ISMA applications for U.S. direct-hire employees.

      Recommendation 2. We recommend that the Office of Human Resources develop,
      implement, and document controls to assess the legitimacy of spouse or domestic
      partner signatures on involuntary separate maintenance allowance applications.

      Recommendation 3. We recommend that the Office of Human Resources review the
      incidents in which employees acknowledged signing their spouse’s signature on
      involuntary separate maintenance allowance applications, take appropriate
      administrative action against those employees found to have signed their spouse’s
      signature, and document the action taken.

Controls Over Allowance
Payments Were Insufficient
USAID/Afghanistan’s Office of Financial Management (OFM) had established internal controls
to help ensure that ISMA payments to mission staff were made in accordance with applicable
laws, regulations, and USAID policy. For example, OFM required staff members to certify each
quarter that their ISMA status had not changed and that they were thus entitled to the same


4
    The remaining nine employees asserted that their spouses had signed the ISMA application.

                                                                                                4
ISMA payment they received the previous quarter. Nevertheless, those controls were not
sufficient to prevent improper payments, as discussed below.

Questionable Payments for Ineligible Dependent Children. For determining ISMA benefits,
DSSR 261.1.c defines a dependent child as one who is under age 21 or incapable of self-support
unless he or she is attending secondary school (Grades 9-12). Relying on self-certifications from
employees, USAID/Afghanistan made ISMA payments to three employees in our sample for
children who had reached or passed the age of 21 as detailed in the following table.

                     Payments for Children Who Had Turned 21 (Audited)
                   Employee          Number of Improper         Amount of Overpayment
                    Number              Payments                          ($)
                       1                      5+                       1,034
                       2                      8+                       1,985
                       3                      2                          814
                      Total                  16+                       3,833
               Note: + indicates payment for a partial month.

Underpayment of ISMA. One employee who took leave between his first and second tour in
Afghanistan had his ISMA payment reduced pro rata for the 18 days that he was away from
post. According to DSSR 265.3, ISMA continues during an employee’s absence from post, as
long as the employee maintains quarters at post. This employee did maintain quarters at post
since he was returning for a second 1-year tour. Therefore, the reduction in the employee’s
ISMA payments between his first and second year represented a $636 underpayment. Another
employee did not receive monthly ISMA payments covering her dependent mother, who was
included on the employee’s approved ISMA application. Ultimately, after 20 months, the
mission made a cumulative payment to the employee totaling more than $13,000.

The above-mentioned improper payments occurred for a number of reasons.                        First,
USAID/Afghanistan’s OFM staff believed that the office’s existing controls relating to the ISMA
payment process were adequate to prevent improper payments. Second, employees involved
in the payment process were not familiar with either the SMA guide or the SMA checklist.
Finally, the mission did not have written procedures or tools, such as checklists, to guide its staff
in ensuring that payments of ISMA benefits made to eligible employees comply with ADS,
DSSR, and other applicable policies and regulations.

We make the following recommendations to strengthen the mission’s compliance with
regulations that affect ISMA payments.

   Recommendation 4. We recommend that USAID/Afghanistan reassess its controls
   over ISMA payments and make any adjustments necessary to strengthen the
   effectiveness of those controls in preventing improper payments.

   Recommendation 5. We recommend that USAID/Afghanistan review the $3,833 in
   separate maintenance allowance paid for children who had turned 21, determine
   whether those children were either incapable of self-support or in secondary school, and
   recover any amounts improperly paid.




                                                                                                   5
    Recommendation 6. We recommend that USAID/Afghanistan review the involuntary
    separate maintenance allowance payments made in fiscal years 2010, 2011, and 2012;
    identify any payments made for children who had turned 21; determine whether those
    children were either incapable of self-support or in secondary school; and recover any
    amounts improperly paid.

    Recommendation 7. We recommend that USAID/Afghanistan pay the $636 balance of
    the separate maintenance allowance to the employee who was underpaid.

No Internal Controls Covered
Approval of Home Leave Travel
Some Foreign Service benefits are not compatible with ISMA. For example, if a child receives
an educational allowance to attend a school away from post, ISMA cannot be paid while the
child is attending school (DSSR 263.5). Similarly, if a child attending secondary school receives
the educational travel allowance, which permits payment of a child’s travel expenses between
school and the employee’s post once each way annually, ISMA cannot be paid for the 12-month
period following that travel/trip (DSSR 263.5). According to the applicable regulations, home
leave travel is also incompatible with ISMA. Chapter 14, Section 531.4 of the State
Department’s Foreign Affairs Manual (14 FAM 531.4) states that home leave travel is not
authorized for family members already on SMA authorization (this would include ISMA). 5
Further, 3 FAM 3433.3(3) indicates that one of the key factors in determining whether family
members qualify for home leave travel is whether they are considered to be residing at post at
the time they accompany the employee traveling under home leave travel orders—which is not
possible for family members covered by ISMA. USAID/Afghanistan should have internal
controls to prevent the approval of Foreign Service benefits that are incompatible with ISMA for
employee family members. USAID/Afghanistan did not have such controls.

During the period under audit, in two cases the mission approved and made improper payments
for home leave travel for dependent family members who had been authorized for and were
already receiving ISMA benefits. In one case, a U.S. direct-hire employee received ISMA
payments for his family members, who were living in Budapest, Hungary. At the end of his tour
in Afghanistan, the mission issued travel orders authorizing and funding home leave travel for
the employee’s four dependent family members before their travel to the employee’s next post.
In the second case, a U.S. direct-hire employee received ISMA payments for his spouse, who
was living in Jakarta, Indonesia. At the end of his tour in Afghanistan, the mission authorized
home leave travel for his spouse before her travel to the employee’s new post. 6

The mission believed that providing home leave travel benefits for family members of these
employees was consistent with the applicable regulations, primarily because 1) the mission had
stopped ISMA payments for those employees upon their departure from post and 2) mission
officials believe that 14 FAM 531.4 is only applicable to voluntary separate maintenance
allowance. However, 14 FAM 531.4 specifically states that home leave travel is not authorized
for family members on SMA authorization. In our opinion, once ISMA covering a family member
has been approved, that family member is on SMA authorization, regardless of the status of
5
   According to ADS 523.3.1, 3 FAM 3430 and 6 FAM 125.8 govern home leave; however 6 FAM 125.8,
  which addressed home leave travel, was replaced by 14 FAM 531.4 in 2005.
6
   Documentation provided by the mission during the course of the audit indicated that other employees
  might also have received improper home leave travel benefits for family members already receiving
  ISMA.

                                                                                                    6
payments for that benefit. In addition, 14 FAM 531.4 does not state that it is only applicable to
voluntary separate maintenance allowance. Finally, the mission’s interpretation does not satisfy
the requirement that family members reside at post at the time the employee travels under
home leave travel orders. Taken together, the prohibition of home leave travel benefits for
family members authorized ISMA and the requirement that family members reside at post in
order to qualify for home leave travel indicate that ISMA is not compatible with the authorization
of home leave travel benefits for family members of employees. Accordingly, we are making the
following recommendations.

   Recommendation No. 8. We recommend that USAID/Afghanistan calculate and
   recover the home leave travel costs paid for dependent family members of the two
   US direct hire employees that already had involuntary separate maintenance
   allowance authorized for those dependents.

   Recommendation No. 9. We recommend that USAID/Afghanistan develop,
   implement, and document controls to help prevent the authorization of Foreign
   Service benefits that are incompatible with involuntary separate maintenance
   allowance for mission employees’ family members. Such controls may include in-
   house training for mission staff.

   Recommendation No. 10. We recommend that USAID/Afghanistan review all
   employees receiving involuntary separate maintenance allowance in fiscal years
   2010, 2011, and 2012 to determine whether those employees or their dependent
   family members received incompatible Foreign Service benefits and recover any
   incompatible benefits paid.




                                                                                                7
EVALUATION OF MANAGEMENT
COMMENTS
Based on our evaluation of management’s comments on our draft report, final action has been
taken on Recommendations 5 and 7. In addition, management decisions have been reached
on Recommendations 2, 3, and 6. No management decisions have been reached on
Recommendations 1, 4, 8, 9 and 10. The following paragraphs provide our evaluation of
mission comments on each recommendation in this report.

Recommendation 1. The mission did not agree that it should develop, implement, and
document controls to help confirm that the ISMA applications it approves for personal service
contractors are properly authorized and comply with DSSR 260. In its response, the mission
stated that a warranted contracting officer, not USAID/Afghanistan, approves ISMA applications
for U.S. and third-country national personal services contractors and that the warranted
contracting officer has the authority to determine whether ISMA is appropriate and, if so, to what
extent. The mission also noted that as the warranted contracting officer, the EXO is expected to
refer to available guidance in DSSR 260, USAID Acquisition Regulation (AIDAR), and
associated acquisition and assistance policy directives when approving ISMA applications.
Finally, the mission asserted that because no problems were found with ISMA authorizations for
U.S. and third-country national personal services contractors, the development and
implementation of new controls were not warranted.

While we recognize the authority of a warranted contracting officer, ADS 596.3.1 notes that
USAID managers and staff must develop and implement appropriate, cost-effective internal
controls for management that produce results and assure the financial integrity of transactions
and does not exempt warranted contracting officers from this requirement. Moreover, the fact
that our limited sample of ISMA applications for U.S. and third-country national personal
services contractors did not identify materially defective applications does not mitigate the risk of
improperly authorized applications, especially in the absence of internal controls governing
authorization of such applications. A management decision has not been reached on this
recommendation.

Recommendation 2. The Office of Human Resources agreed to develop, implement, and
document controls to assess the legitimacy of spouse or domestic partner signatures on ISMA
applications. The office indicated that it had implemented a control system for SMA; however,
this process did not cover employees assigned to Afghanistan. The comments indicated that
staff making decisions on ISMA applications for employees assigned to Afghanistan would now
follow the same procedures used when processing other employees and that staff will pay more
attention to reviewing the signature of spouses on those applications. The target date for final
action is May 14, 2012. A management decision has been reached on this recommendation.

Recommendation 3. The Office of Human Resources agreed to review the incidents in which
employees acknowledged signing their spouse’s signature on ISMA applications, take
appropriate administrative action against those employees found to have signed their spouse’s
signature, and document the specific action taken. The office noted that the Employee and
Labor Relations Division would obtain and review the documentation and facts associated with
each case and take appropriate action after reviewing the incidents. The target date for final


                                                                                                   8
action is July 10, 2012. A management decision has been reached on this recommendation.

Recommendation 4. The mission disagreed that it should develop, implement, and document
proactive controls to prevent improper ISMA payments. The mission believes that controls
already exist for payments issued under properly authorized ISMA benefits. While we
appreciate the mission’s confidence in its current controls, our tests of sample ISMA
transactions revealed both overpayments and underpayments of ISMA (page 5). Consequently,
we believe that the mission should reassess its controls over ISMA payments and make any
adjustments necessary to strengthen the effectiveness of those controls in preventing improper
payments, and we have reworded the recommendation to that effect. A management decision
has not been reached on this recommendation. (NOTE: The draft audit report included a
recommendation concerning the training of staff involved in ISMA payments. We believe that
the intent of that draft recommendation can be met by implementing Recommendation 4, as
shown here.)

Recommendation 5. The mission agreed to review the $3,833 in SMA paid for children that
had turned 21 years of age, determine whether those children were either incapable of self-
support or in secondary school, and recover any amounts improperly paid. Moreover, the
mission indicated that it had reviewed the payments in question, had determined the payments
were improper, and had recovered the entire amount from the employees concerned. Final
action has been taken on this recommendation.

Recommendation 6. The mission agreed to review the ISMA payments made in fiscal years
2010, 2011, and 2012; identify any payments made for children that had turned 21 years of age;
determine whether those children were either incapable of self-support or in secondary school;
and recover any amounts improperly paid. The mission indicated that it would review ISMA
payments made in these years and take steps to recover any improper payments. The target
date for final action is July 31, 2012. A management decision has been reached on this
recommendation.

Recommendation 7. The mission agreed to pay the $636 balance of the SMA to the employee
who was underpaid and indicated that payment of that amount was made on April 10, 2012.
Final action has been taken on this recommendation.

Recommendations 8 - 10. These recommendations were addressed by Recommendations 9-
12 in the draft report. The mission did not agree with these recommendations. It asserted that
home leave travel was compatible with ISMA, claiming that 1) ISMA payments to the employee
had ceased upon their departure from post, 2) 14 FAM 531.4 only applies to voluntary
separation maintenance allowance (VSMA), and 3) the Agency’s intent is to ensure that the
employee and family members are reunited as expeditiously as possible upon conclusion of the
hardship tour and prior to arrival at the next post of assignment.

We do not agree that such benefits are compatible with ISMA. First, 14 FAM 531.4.a clearly
states that home leave is not authorized for family members already on separate maintenance
allowance authorization, which indicates that once ISMA has been authorized (approved) for a
family member, home leave benefits for that family member may not subsequently be
authorized. In addition, 14 FAM 531.4.a does not state that it only applies to VSMA.
Management decisions have not been reached on these recommendations.




                                                                                            9
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
OIG/Afghanistan Country Office conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis. The objective of this audit was to determine
whether USAID/Afghanistan had appropriate internal controls to prevent improper use of ISMA.

The audit was performed in Afghanistan from June 11 through November 2, 2011, and covered
ISMA paid in fiscal year 2011. During that year, the mission paid $2,104,190 in ISMA benefits
to 212 employees. We tested the approval and payment of benefits to 35 of those 212
employees, to whom the mission disbursed $447,807.54 in ISMA benefits during fiscal year
2011. Since the approval and payment of ISMA benefits may cross fiscal years, we also
considered the approval and payment of fiscal year 2010 ISMA benefits, when necessary. We
conducted our work in Kabul at USAID/Afghanistan.

We assessed the significant internal controls used by USAID/Afghanistan to approve and pay
ISMA benefits. In performing the audit, we conducted interviews and reviewed pertinent
documentation, such as ISMA applications, employee self-certifications of eligibility for ISMA,
and payment records. We also examined the payment process in Phoenix, USAID’s accounting
system. In addition, we reviewed prior relevant audit reports to identify internal control and
other issues that could be pertinent to the current audit, including the results of USAID’s fiscal
year 2011 financial audit relevant to the mission.

Methodology
To answer the audit objective, we identified relevant criteria, including ADS 477, DSSR 260,
FAM, U.S. and third-country national personal services contracts, and the Federal Acquisition
Regulation.    We then interviewed USAID/Afghanistan officials and analyzed relevant
documentation to identify the mission’s controls over ISMA benefits and the effectiveness of
those controls. We also interviewed some of the employees in our sample to obtain additional
information when necessary.

To determine the reliability of computer-processed data received from the mission in support of
its obligated and disbursed amounts, we reviewed the results of USAID’s fiscal year 2011
annual financial audit that were relevant to USAID/Afghanistan. Since that audit did not reveal
any material and systematic problems with the mission’s recorded obligations and
disbursements, we considered the computer-processed data used during the audit to be
reliable.

We reviewed the processes for approval and payment of ISMA benefits for a random sample of
35 mission employees. Although these employees were selected randomly, this was not a
statistically valid sample; therefore, the results cannot be projected to the overall population.




                                                                                                10
                                                                    Appendix II



MANAGEMENT COMMENTS

MEMORANDUM                                           May 09, 2012

TO:                    Nathan Lokos, OIG/Afghanistan Director

FROM:                  S. Ken Yamashita, Mission Director /s/
                       Deborah Kennedy-Iraheta, O/HR Director /s/

SUBJECT:               Draft Report on the Audit of USAID/Afghanistan’s
                       Internal Controls in the Administration of Involuntary
                       Separate Maintenance Allowance (ISMA)

REFERENCE:             NLokos memo dated March 17, 2012


Thank you for providing USAID/Afghanistan and the Office of Human
Resources (O/HR) with the opportunity to review the subject draft audit
report. Discussed below are the Mission and O/HR’s comments on the
findings and recommendations in the report.

Recommendation No.1: We recommend that USAID/Afghanistan
develop, implement, and document controls to help confirm that the
involuntary separate maintenance allowance applications that it approves
for personal service contractors are properly authorized and compliant with
Section 260 of the Department of State Standardized Regulations. Such
controls may include application of USAID’s A Guide to Authorizing
Separate Maintenance Allowance (SMA) and the Separate Maintenance
Allowance (SMA) Checklist.

Mission Comments: The Mission appreciates OIG’s thorough review of
the ISMA process; however, we do not concur with Recommendation No.1.

On page 3 of the subject report, OIG states “Although USAID/Afghanistan
was approving ISMA applications for U.S. and third country national

                                                                            11
                                                                  Appendix II


personal services contractors, it had not established a system of internal
controls to help ensure that those applications complied with DSSR 260.” It
should be noted that it is a warranted Contracting Officer and not
USAID/Afghanistan who approves ISMA applications for US and third
country national personal services contractors (US/TCN PSCs).

As part of the contract negotiation process, the warranted Contracting
Officer, based on proof of eligibility provided by the applicant, has the
authority to make the determination whether ISMA is appropriate, and if so,
to what extent.

Additionally, OIG states that “one deputy EXO confirmed that the mission
has no written guidance on the EXO’s role in authorizing ISMA.” As the
warranted Contracting Officer for US/TCN PSCs, the EXO is expected to
refer to available guidance contained in DSSR 260, AIDAR and associated
AAPDs when approving ISMA applications. We believe the existing
controls, prescribed in the cited regulations and policy guidance, are
adequate to ensure proper authorization of ISMA for US/TCN PSCs.
Furthermore, we note that there were no findings associated with improper
authorizations of ISMA for US/TCN PSCs.

The creation of additional controls for which a need has not been
demonstrated introduces a larger administrative burden and cost. Given
that no issues were found in ISMA authorizations for US/TCN PSCs, we
believe the development and implementation of new controls is not
warranted. We, therefore, request OIG to delete Recommendation No.1.

Recommendation No.2: We recommend that the Office of Human
Resources develop, implement, and document controls to assess the
legitimacy of spouse or domestic partner signatures on involuntary
separate maintenance allowance applications.

O/HR Comments: O/HR concurs with this recommendation.

Actions Taken: O/HR implemented a control system for SMA in June
2011. This process, which did not cover employees assigned to
Afghanistan, includes review of the OF-126, SF-1190 (Foreign Allowances
Application, Grant and Report), SMA checklist, and an SMA Certification
Statement. Final approval for SMA is granted by an O/HR/FSP branch
chief.

                                                                          12
                                                                   Appendix II



As a result of this recommendation, all decisions on ISMA regarding
employees assigned to Afghanistan will follow this same procedure and will
be approved by an O/HR/FSP branch chief who does not service the
Afghanistan Mission. In reviewing these applications, greater attention will
be paid to reviewing the signatures of spouses where required.

Final Action Target Date: May 14, 2012

Based on the above, O/HR deems that appropriate actions are being taken
to address Recommendation No. 2 and therefore requests OIG’s
concurrence to the management decision.

Recommendation No. 3: We recommend that the Office of Human
Resources review the incidents where employees acknowledged signing
their spouse’s signature on involuntary separate maintenance allowance
applications, take appropriate administrative action against those
employees found to have signed their spouse’s signature, and document
the specific action taken.

O/HR Comments: O/HR concurs with this recommendation.

Actions Taken: The Employee and Labor Relations Division will obtain
and review the documentation and facts associated with each of the cases
where employees acknowledged signing their spouse’s signature and
O/HR will take and document appropriate actions based on a review of the
incidents.

Final Action Target Date: July 10, 2012

Based on the above, O/HR deems that appropriate actions are being taken
to address Recommendation No. 3 and therefore requests OIG’s
concurrence to the management decision.

Recommendation No.4: We recommend that USAID/Afghanistan develop,
implement, and document proactive controls to prevent improper
involuntary separate maintenance allowance payments. Such controls may
include review checklists, spreadsheets with conditional formatting to
highlight children turning 21, and other mechanisms to assist staff involved
in the payment process in identifying changes in separate maintenance
                                                                           13
                                                                      Appendix II


allowance status.

Mission Comments: USAID/Afghanistan does not concur with this
recommendation “to develop, implement, and document proactive controls
to prevent improper involuntary separate maintenance allowance
payments.” The Mission’s position is that controls already exist for
payments issued under properly authorized ISMA benefits.

However to further mitigate the risk of improper authorization of ISMA
benefits for staff when dependents reach 21 years of age, the Mission has
instructed its accounting personnel who post the ISMA obligations within
the Phoenix accounting system to conduct detailed reviews for the ISMA
authorizations when dependent children are involved for age compliance.
During these reviews, when discrepancies are noted, the appropriate
authorizing official will be notified of findings so that corrective action is
undertaken.

To this end, the Mission Accountants have been reminded of the need to
perform detailed reviews of all ISMA applications approved by an
authorizing official prior to posting in Phoenix to determine if ISMA benefits
for dependent children are in compliance with Agency guidance.

Based on the above, the Mission requests that OIG delete this
recommendation.

Recommendation No.5: We recommend that USAID/Afghanistan review
the $3,833 in separate maintenance allowance paid for children that had
turned 21 years of age, determine whether those children were either
incapable of self-support or in secondary school, and recover any amounts
improperly paid.

Mission Comments: USAID/Afghanistan concurs with this
recommendation.

Actions Taken: The Office of Financial Management (OFM) reviewed the
ISMA payments in question associated with three employees and
determined that payments in the amount of $3,833 were made under
improper authorizations. Notices of Payment Due were issued to the three
employees on March 18th, 2012. To date, the Mission has recovered the
entire $3,833 through cash payments from the concerned employees.

                                                                              14
                                                                Appendix II



Final Action Target Date: N/A

The Mission deems that final actions to address Recommendation No. 5
have been completed and therefore requests OIG’s concurrence to its
closure.

Recommendation No. 6: We recommend that USAID/Afghanistan review
the involuntary separate maintenance allowance payments made in fiscal
years 2010, 2011, and 2012; identify any payments made for children that
had turned 21 years of age; determine whether those children were either
incapable of self-support or in secondary school; and recovery any
amounts improperly paid.

Mission Comments: The Mission agrees with the recommendation.

Planned Actions: USAID/Afghanistan will review ISMA payments made in
fiscal years 2010, 2011 and 2012. If any improper payment is identified,
the Mission will take steps to recover such payments.

Final Action Target Date: July 31, 2012

The Mission deems that the above planned actions are adequate to
address Recommendation No. 6 and therefore requests OIG’s concurrence
to the management decision.

Recommendation No.7: We recommend that USAID/Afghanistan pay the
$636 balance of the separate maintenance allowance to the employee that
was underpaid.

Mission Comments: USAID/Afghanistan concurs with the
recommendation.

Action Taken: Payment of $636 was made to the employee on April 10,
2012 through Voucher No. 306122884TD. Supporting documentation is
available in OFM for review by OIG, if requested.

Final Action Target Date: N/A

Based on the above, the Mission deems that final actions have been

                                                                        15
                                                                    Appendix II


completed for Recommendation No. 7 and therefore requests OIG’s
concurrence to its closure.

Recommendation No. 8: We recommend that USAID/Afghanistan provide
and document training concerning the regulations regarding involuntary
separate maintenance allowances to its staff involved in the payment of
those allowances.

Mission Comments: USAID/Afghanistan does not concur with OIG’s
Recommendation No. 8.

USAID/Afghanistan is not aware of any USAID mission, or any other
foreign affairs agency, which has developed and offers a training program
related to regulations in the ISMA benefit area. If, and when, such a
training program is developed and available to foreign affairs agencies, the
Mission will fully consider the need for such training within each Foreign
Service National (FSN) voucher examiner’s individual training plan.

It should be noted that the responsible personnel are cognizant of the
standardized regulations within the ISMA area and are aware of the need
to review such regulations whenever issues arise or, alternatively, to
consult within their supervisory chain for resolution.

In addition, all voucher examining personnel attend formal agency
sponsored and approved training in payment processing, including both
basic and advance payment processing courses. Newly recruited staff are
immediately enrolled in both formal courses as soon as they become
available, usually within one year of joining the voucher section. The
Mission believes that payment personnel are adequately trained and have
proper oversight to perform their payment job functions.

However, the Mission will offer a suggestion to the Office of the Chief
Financial Officer specifically recommending that the Agency give
consideration to amending the formal basic and advanced Voucher
Examination courses and the basic and advanced Accountants training
courses to include highlighting specific benefits authorized within the
Standardized Regulation, including ISMA.

Based on the above, the Mission requests that OIG delete the
recommendation or alternatively consider it closed upon issuance.

                                                                            16
                                                                  Appendix II



Recommendation No. 9. We recommend that USAID/Afghanistan
calculate and recover the home leave travel costs paid for dependent
family members of the two US direct hire employees that had received
involuntary separate maintenance allowance benefits for those
dependents.

Recommendation No. 10. We recommend that USAID/Afghanistan
develop, implement, and document controls to confirm that incompatible
Foreign Service benefits are not authorized and paid for mission
employees’ dependent family members who had already received
involuntary separate maintenance allowance benefits while the employee
was posted to USAID/Afghanistan.

Recommendation No. 11. We recommend that USAID/Afghanistan
provide and document training concerning Foreign Service benefits
incompatible with the involuntary separate maintenance allowance to staff
involved in the authorization and payment of those benefits.

Recommendation No. 12. We recommend that USAID/Afghanistan review
all employees receiving involuntary separate maintenance allowance in
fiscal years 2010, 2011, and 2012; determine whether those employees or
their dependent family members received incompatible Foreign Service
benefits; and recover any incompatible benefits paid.

Mission Comments: USAID/Afghanistan does not concur with the above
four recommendations. These recommendations are based on the OIG
assumption that employees were granted incompatible benefits. OIG states
on page 6 of the draft audit report that “According to the applicable
regulations, home leave travel is also incompatible with ISMA.” It is
important to note that ISMA benefit payments for the two employees in
question were stopped upon departure from post. As a result, the
authorized travel benefits were incurred for the period subsequent to the
termination of the ISMA entitlement, therefore there was no dual benefit
received by the employee and no recovery is needed.

Moreover, OIG asserts that based on 14 FAM 531.4 (referencing 14 FAM
536.1) travel is not authorized for family members already receiving ISMA
benefits. This is an incorrect assertion because the cited FAM provision
only applies to Voluntary Separate Maintenance Allowance (VSMA), not

                                                                            17
                                                                     Appendix II


ISMA.

The current standardized regulations provide the Agency latitude when
authorizing benefits to support personnel who accept and are assigned to
extreme hardship posts within CPC environments. These benefits may
include authorization for travel for family members before, and upon
conclusion of, a hardship assignment. This authority is recognized as an
allowable option under DSSR 267.4.

Much of the decision process surrounding the provision of the benefits
related to a hardship tour is to ensure both the employee and family
members’ health and well-being are addressed. Ensuring an effective
support structure is in place for the employee’s family members is one of
the most important benefits when the employee accepts a hardship
assignment. This support structure also includes the ability to reunite the
employee and family members as quickly as possible upon conclusion of
the hardship assignment. This is evidenced by the Agency mandatory
reference for ADS Chapters 436 and 480, New Home Leave Policy for 12-
Month Overseas Assignments which specifically states:

“The intent of the new authority is to provide a home leave benefit for
employees serving at the most difficult and dangerous posts, where the
official tour of duty is 12 months. Such a benefit will afford employees an
opportunity not only to be reoriented to the U.S., but also to decompress
and reunite with their family members before moving on to their next
assignment.”

It is clearly the Agency’s intent to ensure that the employee and family
members are reunited as expeditiously as possible upon conclusion of the
hardship tour and prior to arrival at the next post of assignment. The
Agency also authorizes, when employees so elect, to allow the family
members to “remain behind” at the previous post of assignment, in lieu of
being placed upon ISMA. In these situations, the Agency is making a
determination that it is in the best interest of the employee’s family
members to be supported at the previous post of assignment in lieu of
being required to repatriate to the United States under ISMA where a family
support system may not exist. Cost is clearly not a decision point in these
determinations, as the Agency expends well in excess of an average of
$300,000 per year to support the “family left behind” benefit, whereas the
equivalent cost under ISMA benefit would not exceed $23,000 per year.

                                                                              18
                                                                  Appendix II



Likewise, employees with foreign born spouses may determine a more
beneficial family support system would be available for the family members
if they resided in a foreign location rather than in the United States. The
Agency has the authority to authorize such family members travel to and
from the foreign ISMA location during a hardship tour. There is no specific
regulation which prevents such authorization as is the case with the
Voluntary Separate Maintenance allowance.

Based on the above, the Mission requests that OIG delete these
recommendations.




cc:   OAPA:HDorcus
      M/CFO:DOstermeyer




                                                                          19
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
